          Evaluation of
      The Office of Federal
 Contract Compliance Programs’
     Scheduling Procedures
   (Supply & Service Reviews)



           U.S. Department of Labor
           Office of Inspector General
Office of Analysis, Complaints and Evaluations




                                       Report No. 2E-04-410-0001
                                                   March 31, 2000
                                                    Table of Contents

                                                                                                                                   Page

       Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

I.     Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.    Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

III.   Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

IV.    Findings and Recommendations:

       A.         Validity of EEDS List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

       B.         Selection of Contractors for Compliance Reviews . . . . . . . . . . . . . . . . . . . . . 6

       C.         Contractor Selection Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

V.     Summary of Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


Appendices

       A.         Laws Enforced by OFCCP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

       B.         Bibliography . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

       C.         Glossary and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

       D.         EEO-1 Form (Revised 3/97) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

       E.         Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16




                                                                   i
                                  Executive Summary

The Office of Inspector General (OIG) conducted a review of methods and criteria used by
the Office of Federal Contract Compliance Programs (OFCCP) for scheduling supply and
service contractors for compliance evaluations, and the application of the agency’s
scheduling criteria.

Compliance evaluations are a vital tool used by OFCCP to ensure that federal contractors
are complying with the equal employment opportunity and affirmative action obligations of
their contracts.

Purpose

Our review focused on the following three questions: (1) whether the Equal Employment
Data System (EEDS) list generates a statistically valid sample to select contractors for
compliance review; (2) how OFCCP is using the EEDS to select contractors for
compliance reviews; and, (3) whether OFCCP is uniformly applying the contractor
selection process throughout the United States.

Findings and Recommendations

A.     Validity of EEDS List

       Finding: OFCCP uses a random sort rather than a sample to select contractors
       for compliance review.

       Through 1997, OFCCP used a sample to generate its EEDS list. Since then,
       OFCCP changed its procedures and the EEDS list is now generated solely through
       a random sort of contractors selected based on their employment patterns of
       minorities and women.

       During our interviews, we discovered that the EEDS is not an accurate
       representation of the Federal contractors throughout the United States. EEDS
       contains inaccurate and outdated EEO-1 data, e.g., companies that are not Federal
       contractors often report so incorrectly; and, outdated EEO-1 reports include
       contractors that have gone out of business, or those having contracts less than
       OFCCP’s $50,000 threshold.

       Recommendation:

       OFCCP should explore using other data available to the agency to verify contractor
       coverage. At a minimum, OFCCP should link the EEDS with more current

                                             ii
     information regarding contractor coverage available through other mechanisms
     such as the Federal Procurement Data System (FPDS).

B.   Selection of Contractors for Compliance Reviews

     Finding: The EEDS list is distributed to district offices, who must then schedule
     contractors for compliance review in consecutive order.

     Recommendation: There are no recommendations for this finding.

C.   Contractor Selection Process

     Finding: OFCCP’s National Office does not have an internal monitoring system to
     determine District Offices’ compliance with the contractor scheduling procedures.

     As a result, we were unable to determine whether the contractor selection process
     was uniformly applied throughout the United States.

     We believe that further review of OFCCP’s uniform application of the scheduling
     procedures for supply and service contractors is needed. This can be
     accomplished through a future evaluation of OFCCP’s internal monitoring process,
     including site visits as appropriate.

     Recommendation:

     OFCCP should develop and implement a system for National Office monitoring of
     its District Offices’ compliance in scheduling of supply and service contractors for
     evaluations.

     Agency Response and OIG Conclusion

     The agency’s response to the OIG’s draft final report agreed with the proposed
     recommendations provided by OIG.

     Our recommendations have been resolved pending receipt of documentation
     outlined in the report.




                                           iii
I.    PURPOSE

      The Office of Inspector General (OIG) conducted a review of methods and criteria
      used by the Office of Federal Contract Compliance Programs (OFCCP) for
      scheduling supply and service contractors for compliance evaluations. Compliance
      evaluations are a vital tool used by OFCCP to ensure that federal contractors are
      complying with the equal employment opportunity and affirmative action obligations
      of their contracts. While the number of federal contractors is very large, comprising
      approximately 92,500 non-construction establishments, limited resources allowed
      OFCCP to review only 2,588 (2.8%) supply and service contractors in fiscal year
      (FY) 1999. For these reasons, OFCCP has both a practical need and ethical
      responsibility to schedule compliance evaluations as objectively and efficiently as
      possible.

      Our review focused on the following three questions: (1) whether the EEDS list
      generates a statistically valid sample to select contractors for compliance review;
      (2) how OFCCP is using the EEDS system to select contractors for compliance
      reviews; and, (3) whether OFCCP is uniformly applying the contractor selection
      process throughout the United States.

      This review supports the Employment Standards Administration’s and the
      Department of Labor’s strategic goal number 3 - fostering equal opportunity
      workplaces.

II.   BACKGROUND

      OFCCP enforces Executive Order 11246, as amended, Section 503 of the
      Rehabilitation Act of 1973, the Vietnam Era Veterans’ Readjustment Assistance
      Act of 1974 (VEVRAA), the Immigration Reform and Control Act of 1986 (IRCA),
      and Title I of the Americans with Disabilities Act of 1990 (ADA). (Reference
      Appendix A for information on each of OFCCP’s enforcement laws.) These require
      that federal contractors take affirmative action to ensure that all individuals have an
      equal opportunity for employment, without regard to race, sex, ethnicity, national
      origin, religion, disability or as a Vietnam era or special disabled veteran.

      There are 56 OFCCP District/Area Offices, organized into eight Regional Offices,
      located in Boston, New York, Philadelphia, Atlanta, Chicago, Dallas, Seattle, and
      San Francisco. The District/Area Offices conduct evaluations of the contractors
      within their geographic area to ensure compliance with OFCCP statutes and
      regulations. Only a small number of contractors within the overall contractor
      population in any given District can be reviewed, given the large number of
      contractors and OFCCP’s relatively small size as an enforcement agency (743 total
      staff in FY 1999).

                                             1
       OFCCP has encountered criticism from the contractor community regarding the
       consistency and neutrality of their compliance evaluation scheduling practices. In
       some cases, such criticisms have been followed by litigation directly challenging
       OFCCP’s scheduling practices and procedures. The uncertainty imposed by
       judicial challenges led OFCCP to request a formal legal review of its selection
       procedures for supply and service contractors by the Solicitor of Labor (SOL) in
       1998. On August 1, 1998 the SOL provided OFCCP with specific legal guidance
       on how to formulate appropriate selection procedures for supply and service
       contractors. On October 28, 1998, the Deputy Assistant Secretary for ESA formally
       articulated polices and procedures for scheduling supply and service compliance
       evaluations during FY 1999, by issuing a memorandum to each OFCCP Regional
       Director.

III.   METHODOLOGY

       We focused on OFCCP’s method for scheduling supply and service contractors.
       To determine the validity of the EEDS list and the selection of contractors for
       compliance review, we examined OFCCP’s EEDS, which generates random lists
       of contractors eligible for compliance evaluations. To determine if the contractor
       selection process is uniformly applied throughout the United States, we examined
       the application of the selection criteria to verify if District Offices are complying with
       the procedures set forth by their National Office. This included an examination of
       whether OFCCP has an internal process to monitor its contractor selection system,
       in order to determine if District Offices are following established procedures. We
       visited two District Offices and conducted telephone interviews with seven others.
       Site visits included examination of data and interviews of supervisory and non-
       supervisory staff. We also conducted interviews of managerial staff from the
       OFCCP National Office.

       The evaluation period covered FY 1999, using EEDS and tracking data from
       November 1, 1998, through September 30, 1999. November 1, 1998 was used as
       the beginning date to provide ample time for District Offices to receive their EEDS
       lists.

       The evaluation was conducted in accordance with the Quality Standards for
       Inspections published by the President’s Council on Integrity and Efficiency.




                                                2
IV.   FINDINGS AND RECOMMENDATIONS:

      A.      Validity of EEDS List

              Finding: OFCCP uses a random sort rather than a sample to select
              contractors for compliance review. The outdated and otherwise inaccurate
              information it contains undermines its validity.

              Through 1997, OFCCP used a sample to generate its EEDS list. This
              consisted of a random selection of a portion of all contractor establishments
              in EEDS, and “flagged” contractors selected based on their employment
              patterns of minorities and women. There was some flexibility in the
              contractors that were selected for compliance review because
              approximately 1 percent of the selections were from the random sample, 84
              percent were from the flagged establishments and 15 percent were
              discretionary1. Since then, OFCCP has changed its procedures and the
              EEDS list is now generated solely through a random sort of contractors
              selected based on their employment patterns of minorities and women.

              OFCCP has access to two databases. One is the EEDS, that OFCCP has
              designated to be used to schedule contractors for compliance evaluations,
              and the other is the Federal Procurement Data System2 (FPDS) which is a
              central repository for information on all Federal contracts. FPDS is limited
              because the database only covers contractors who have received the award
              (prime contractors) and does not include sub-contractors (contractors
              working for a prime contractor). Currently, OFCCP only uses EEDS.

              EEDS is an automated system consisting of a list of contractor
              establishments selected because of their patterns of minority and female
              employment. The records in the EEDS database are generated from
              Employer Information Reports (EEO-1) that provide information on the
              demographic characteristics of supply and service contractors.

              During our interviews, we discovered that the EEDS is not an accurate
              representation of the Federal contractors throughout the United States.
              EEDS contains inaccurate and outdated EEO-1 data, e.g., companies that
              are not Federal contractors often report so incorrectly; and, outdated




      1
        District Offices could select up to 15 percent of their supply and service compliance reviews from
      among contractors other than those flagged on the listing.
      2
        The FPDS is maintained by the Federal Procurement Data Center housed in the General Services
      Administration.

                                                   3
        EEO-1 reports include contractors that have gone out of business, or those
        having contracts less than OFCCP’s $50,000 threshold.

        The EEDS list contains establishments who report themselves as Federal
        contractors but in fact are not. Perhaps this is because they are not aware of
        the status or obligations of a federal contractor. (Only contractors who self-
        report their status as a prime or sub-contractor via the EEO-1 reports are
        included in the EEDS database.) EEO-1 reports are filed with the Joint
        Reporting Committee (JRC)3. There may also be contractors who fail to
        report to the JRC, whether intentionally or unintentionally and may not be
        included on the EEDS lists, thus avoiding review.4

        An additional problem concerns the age of EEO-1 reports, which negatively
        impacts the accuracy of EEDS listings. The FY 1999 EEDS list used for our
        evaluation was comprised of contractors who filed EEO-1 reports in 1997.
        The use of outdated EEO-1 reports to generate current EEDS listings
        undermines the validity of the list and creates problems for District personnel
        responsible for scheduling compliance evaluations. Interviewees
        consistently reported that an inordinate amount of time is wasted in verifying
        contract coverage because they are working with information that is at least
        two years old.

        We found concrete examples of                         Number of Companies Rejected
                                                              From Two District Offices - 387
        inaccuracies in EEDS listings during our
        visits to two District Offices. While
        reviewing the OFCCP Contractor Non-
        Scheduling forms used to document                         62.0%     240


        companies originally on the EEDS list,
        but ineligible for review, we found that                                     147         38.0%

        240 of the 387 non-scheduling forms
        showed “no evidence of a contract”.5
                                                                    no contracts           other reasons
        Other related reasons documented on
        non-scheduling forms, which also


3
  The JRC was initially comprised of representatives from the Equal Employment Opportunity
Commission (EEOC) and OFCCP. Presently, OFCCP is only a participatory of the committee.
4
   If a contractor is caught not filing, or filing a false EEO-1 report, OFCCP can commence with an
immediate compliance evaluation. However, as far as we can determine, there is no punitive
penalty for failing to report to the JRC, and contractors who fail to file EEO-1 reports may
successfully evade detection.
5
  There are reasons other than lack of contracts as to why a company on the EEDS list may not be
scheduled for a compliance evaluation. These include pending enforcement cases, ongoing
consent decrees, work stoppages, or because compliance actions occurred within the prior 24
months. OFCCP cannot necessarily be expected to anticipate these scenarios, (they cannot be
captured on EEO-1 forms).

                                            4
highlight the issues of age and inaccuracy of EEO-1 data, include
contractors that have gone out of business, or those having contracts less
than OFCCP’s $50,000 threshold.

We conclude that information on federal contracts is so basic to the mission
of OFCCP that EEDS should not be seriously flawed in this area.

Recommendation:

OFCCP should explore using other data available to the agency to verify
contractor coverage. At a minimum, OFCCP should link the EEDS with
more current information regarding contractor coverage available through
other mechanisms such as the FPDS.

OFCCP Response to the Validity of EEDS List:

“OFCCP is aware of this issue and has actively pursued methods for
receiving and utilizing complete information on jurisdiction. In December
1999, OFCCP formed a Jurisdiction Task Force composed of one person
from each OFCCP region and two from the National Office. The purpose of
this taskforce is threefold:

    •   First, the task force will gather all methods each region uses to
        establish jurisdiction. This information will be selectively
        consolidated and issued to the regions so that OFCCP will benefit
        from the identification and implementation of proven methods used
        to establish jurisdiction.

    •   Second, the task force will develop processes to reduce the time
        devoted to the research of contract information necessary to
        establish contract coverage. One of the projects resulting from their
        work is the idea to use electronic contract data captured from an
        automated sort of the Federal Procurement Data System (FPDS)
        data. Other projects will deal with the issue of sub-contractor
        jurisdiction.

•       Third, the task force will continue to explore changes to and the
        improvement in the receipt of information obtained from the Joint
        Reporting Committee (JRC), and the Central Contractor
        Registration (CCR) administrator. This will enable OFCCP to
        improve its ability to establish jurisdiction in a timelier manner.
        OFCCP has no direct control over the data generated from the
        EEO-1 form as it receives this data from the JRC. Additionally, it


                               5
               does not have control over the Central Registry data; nonetheless,
               OFCCP will work with the CCR in order to gain contract information
               as soon as the contracts are registered in this system and match
               this data with the EEDS list.

       OFCCP will actively pursue additional avenues for the early establishment
       of jurisdiction as resources permit. The task force will complete the first
       phase of work not later than April 2000. At least one additional task force
       project will begin during the third quarter of FY2000. Discussions with
       representatives from the CCR will begin not later than the fourth quarter of
       FY2000.”

       OIG’s Conclusion

       We believe that the CCR is a viable source to collect information in
       conjunction with the Federal Procurement Data System (FPDS). Data
       entered into the FPDS is completed by each Federal agency’s contracting
       official, whereas the CCR data is completed by contractors who wish to
       obtain Department of Defense6 contract awards–contracts will only be
       awarded to registered contractors.

       During the exit conference, we were informed that the EEDS is tracked via
       EEO-1 numbers. Other databases, like the CCR and FPDS, are tracked via
       a Dun and Bradstreet number. These tracking differences create an
       incompatibility in linking with other databases. Since then, we have learned
       that the Joint Reporting Committee has revised its EEO-1 7 report. Public
       Law 88-352, requires contractors to file an EEO-1 report on an annual basis.
       Item 3, Section C of the revised report, requires Federal contractors to
       include their Dun and Bradstreet number. Contractors who fail to complete
       the form will be penalized. (A copy of the front page of a current EEO-1 form
       is included as Appendix D.) We realize OFCCP will have to continue to
       search avenues to collect sub-contractor information. However, the EEDS
       list used by OFCCP to select contractors for compliance review will provide
       more accurate information since the Dun and Bradstreet Number is included
       in all three databases.

       We concur with the agency’s corrective actions and consider this
       recommendation to be resolved. The recommendation will be closed
       pending our receipt of documentation on the development and


6
 DoD is the largest purchaser of goods and services.
7
 JRC has received OMB approval on the 3/97 EEO-1 form through 2002. The following website can
be used to obtain information on the EEO-1 reports: http://www.mimdms.com

                                          6
     implementation of using or linking to other data bases that improve the
     accuracy of contractor coverage.

     Phase 1 - gather, consolidate and issue methods to establish jurisdiction:
     May 31, 2000.

     Phase 2 - increase ability to establish jurisdiction: August 31, 2000.

     Phase 3 - linking with databases (JRC, FPDS, CCR): January 31, 2001.


B.   Selection of Contractors for Compliance Reviews

     Finding: The EEDS list is distributed to district offices, who must then
     schedule contractors for compliance review in consecutive order.

     After the EEDS list is sorted randomly, OFCCP’s National Office separates
     the list into the six Regional Offices. The list is then distributed to each
     Regional Office, and subsequently to each District Office. Each District
     Office, as a matter of policy, must start with the first contractor establishment
     on its EEDS list and work down in consecutive order when scheduling
     establishments for routine compliance reviews. Because of the number of
     Federal contractors on the EEDS list, District Offices typically are not able to
     schedule them all for compliance reviews. The National Office has corrected
     this problem in the FY 2000 scheduling procedures by changing how
     compliance checks supplement compliance reviews . Implemented in 1998,
     a compliance check is a limited inspection of records to ensure the
     contractor has maintained them according to OFCCP regulations. Unlike
     compliance reviews that start with the first contractor on the first page of the
     EEDS list and work down consecutively, compliance checks are scheduled
     starting with the last contractor on the last page of the EEDS list and work
     up consecutively.

     Recommendation: There are no recommendations for this finding.


C.   Contractor Selection Process

     Finding: OFCCP’s National Office does not have an internal monitoring
     system to determine whether the contractor selection process was uniformly
     applied throughout the United States.

                                     7
As a result, we were unable to determine whether the District Offices were in
compliance with the contractor scheduling procedures. OFCCP has both a
practical need and ethical responsibility to ensure that District Offices
schedule compliance reviews as objectively and efficiently as possible.
Internal monitoring of District Offices’ compliance with OFCCP’s procedures
would be desirable to ensure that the procedures are implemented as
planned and in the event these procedures are challenged in litigation.

Currently, the Regional Offices, and in some instances the National Office,
conduct quality control audits on selected compliance reviews. The audit,
however, does not examine the process as a whole.

We examined OFCCP’s National Office database for evidence that the
contractor selection process was uniformly applied throughout the United
States. With the exception of one District Office, this analysis showed a
wide deviation from the order in which contractors appeared on District
Offices’ EEDS lists. Initially, this led us to believe that District Offices were
generally not adhering to proper scheduling procedures.

We continued our analysis by conducting field visits to two District Offices,
as well as telephonic interviews with seven other District Offices, to test our
preliminary findings. An examination of the information did not provide
sufficient evidence to determine if contractor scheduling procedures were
being applied uniformly but, more importantly, we found that OFCCP’s
National Office does not have an internal monitoring system to determine
District Offices’ compliance with the contractor scheduling procedures.

We believe that further review of OFCCP’s uniform application of the
scheduling procedures for supply and service contractors is needed. This
can be accomplished through a future evaluation of OFCCP’s internal
monitoring process, including site visits as appropriate.

Recommendation:

OFCCP should develop and implement a system for National Office
monitoring of its District Offices’ compliance in scheduling of supply and
service contractors for evaluations.




                                 8
          OFCCP Response to the Contractor Selection Process:

          “We concur with this recommendation, but wish to point out that OFCCP
          has a decentralized organization wherein the District offices report to the
          Regional Office. OFCCP is addressing this issue through short and
          long-range strategies that will utilize technology and human resource
          driven options. This approach will couple related activities within the
          national office divisions to ensure ongoing monitoring of the selection and
          scheduling system. In the short-term, OFCCP will match EEO-1 numbers
          and the current EEDS list in order to ascertain gaps in scheduling and
          other status reports. Where discrepancies are found, the process will
          provide for national and regional office intervention to assure that reasons
          for non-selection are properly considered and documented. Moreover, the
          audit program, once instituted, will serve as a guide to the development of
          supplemental introduction and training. This automated list will be
          prepared one time each quarter beginning April 2000.

          In the long term, OFCCP will merge the EEDS listing with the Case
          Management System (CMS) so that managers will be notified if
          scheduling takes place in a different sequence than anticipated by EEDS.
          This will provide more timely notice to OFCCP managers so that proper
          monitoring may occur. While there are legitimate reasons why companies
          are not scheduled exactly in the EEDS sequence, managers will be more
          aware of these occurrences throughout the year.”

          OIG’s Conclusion

          We concur with the corrective actions and consider this recommendation to
          be resolved. The recommendation will be closed pending our receipt of
          documentation on the development and implementation of a system for the
          National Office to monitor its District Offices’ compliance in scheduling
          supply and service contractors. Documentation for the following steps
          should be provided to this office by the dates specified:

          Short term objective - matching EEO-1 numbers and the current EEDS list in
          order to ascertain gaps in scheduling and other status reports and
          discrepancies will be noted: June 30, 2000.

          Long term objective - Merge the EEDS listing with CMS: March 31, 2001.

V.   Summary of Recommendations

     1.   OFCCP should explore using other data available to the agency to verify
          contractor coverage. At a minimum, OFCCP should link the EEDS with

                                        9
               more current information regarding contractor coverage available through
               other mechanisms such as the FPDS.

       2.      OFCCP should develop and implement a system for National Office
               monitoring of its District Offices’ compliance in scheduling of supply and
               service contractors for evaluations.

We appreciate the time and cooperation we received from OFCCP during this review.
Please do not hesitate to address any questions you have concerning this report to Lynne
Johnson at (202) 219-4497 ext. 103.


Contributors to this report:

Lynne M. Johnson, Project Leader
Nigel Gardner
Joan Wright
Daryll Butler
Dennis J. Raymond

Amy C. Friedlander, Director, Division of Evaluations and Inspections




                                             10
                                                                                 Appendix A
                             LAWS ENFORCED BY OFCCP

The Office of Federal Contract Compliance Programs enforces the following:

Executive Order 11246, as amended
This 35 year-old order, signed by President Lyndon B. Johnson, prohibits discrimination in
hiring or employment decisions on the basis of race, color, gender, religion, and national
origin. It applies to all nonexempt government contractors and subcontractors and federally
assisted construction contracts and subcontracts in excess of $10,000.

Under the Executive Order, contractors and subcontractors with a federal contract of
$50,000 or more, and 50 or more employees are required to develop a written affirmative
action program that sets forth specific and result-oriented procedures to which a contractor
commits itself to apply every good faith effort.

Section 503 of the Rehabilitation Act of 1973, as amended

Prohibits discrimination and requires affirmative action in all personnel practices for
qualified individuals with disabilities. It applies to all firms that have a nonexempt
Government contact or subcontract in excess of $10,000. An affirmative action program is
required.
38 USC 4212 - The Vietnam Era Veterans' Readjustment Assistance Act of 1974
(VEVRAA), as amended

This prohibits discrimination and requires affirmative action in all personnel practices for
special disabled veterans, Vietnam Era veterans, and veterans who served on active duty
during a war or in a campaign or expedition for which a campaign badge has been
authorized. It applies to all firms that have a nonexempt Government contract or
subcontract of $25,000 or more. An affirmative action program is required.


OFCCP Shares Enforcement Authority for the Following Regulations:

Immigration Reform and Control Act of 1986 (IRCA), as amended
Requires employers to maintain certain records pertaining to the citizenship status of new
employees. These records are examined during the course of compliance reviews and
complaint investigations. Results are reported to the Immigration and Naturalization
Service.

Title I of the Americans with Disabilities Act of 1990 (ADA), as amended

When this new legislation became effective in July 1992, most qualified individuals with
disabilities attained protection against employment discrimination through two federal non-
discrimination statutes - the Rehabilitation Act of 1973 and the Americans with Disabilities
Act.

                                             11
                                                                               Appendix B

                                     BIBLIOGRAPHY


Standard Form 100, Equal Employment Opportunity Employer Information Report
EEO-1, ( Rev 12/79)

U.S. Department of Labor, Code of Federal Regulations, 41 CFR Part 60, Office of Federal
Contract Compliance Programs, Equal Employment Opportunity.

U.S. Department of Labor, Employment Standards Administration, Office of Federal Contract
Compliance Programs, History of OFCCP, (visited 9/14/99)
<http://www.dol.gov.dol/esa/public/aboutesa/history/ofccp/ofcphist.htm>

U.S. Department of Labor, Employment Standards Administration, Office of Federal Contract
Compliance Programs, What is the OFCCP? (visited 2/1/00)
<http://www.dol.gov.dol/esa/public/aboutesa/org/ofccp/ofcpinfo.htm>

U.S. Department of Labor, Employment Standards Administration, Vision Statement (visited
2/1/00) <http://www.dol.gov.dol/esa/public/aboutesa/vision/vision.htm>

U.S. Department of Labor, Employment Standards Administration, Office of Federal Contract
Compliance Programs, Fact Sheet (visited 9/14/99)
<http://www.dol.gov.dol/esa/public/regs/compliance/ofccp/fs11246.htm>

U.S. Department of Labor, Employment Standards Administration, OFCCP, Fact Sheet on
Affirmative Action (visited 9/14/99)
<http://www.dol.gov.dol/esa/public/regs/compliance/ofccp/aa.htm>

U.S. Department of Labor, Program Highlights, Fact Sheet ESA 97-29, undated

U.S. Department of Labor, Employment Standards Administration, Strategic Plan FY 1997-2002
(visited 2/1/00) <http://www.dol.gov.dol/esa/public/about/esa/str-plan/main.htm>

Wilcher, Shirley J. Memorandum to Regional and District Directors. October 28, 1998,
Scheduling Procedures for Supply and Service Compliance Evaluations.

U.S. Department of Labor, Equal Employment Data System (EEDS) User’s Manual,
Procedures for the Selection of Supply and Service Contractors for Evaluation (Washington,
D.C.: 1992).

U.S. Department of Labor, Federal Contract Compliance Manual (Washington, D.C.: 1993),
2-3.

U.S. Department of Labor, Equal Employment Data Systems (EEDS) System Production Run
and Maintenance Manual (Washington, D.C.: October, 1998).

U.S. Department of Labor, 1997 EEDS Flagged Contractors by Random Order, October 23,
1998


                                             12
                                                                                Appendix C

                                     GLOSSARY

Contract:              Any “Government Contract” or, for the Executive Order, any
                       “Federally Assisted Construction Contract.”

Contractor:            Chapter 60 of the Equal Employment Opportunity regulations, states
                       a prime or sub contractor falls under OFCCP jurisdiction if they have
                       50 employees or more and have a Federal contract, subcontract or
                       purchase order amounting to $50,000 or more; or serves as a
                       depository of Government funds in any amount; or is a financial
                       institution which is an issuing and paying agent for U.S. savings
                       bonds and savings notes.

Dun's Number:          An identification number assigned to a business by Dun & Bradstreet
                       (D&B).

EEO-1 Report:          The Equal Employment Opportunity Employer Information Report
                       (EEO-1): An annual report filed with the Joint Reporting Committee
                       (composed of OFCCP and EEOC) by certain employers subject to
                       the Executive Order or to Title VII of the Civil Rights Act of 1964, as
                       amended. This report details the sex and race/ethnic composition of
                       an employer's work force by job category. (Also termed Standard
                       Form 100.)

EEOC:                  The U.S. Equal Employment Opportunity Commission (EEOC) was
                       established by Title VII of the Civil Rights Act of 1964 and began
                       operating on July 2, 1965. The EEOC enforces the principal federal
                       statutes prohibiting employment discrimination.

Establishment:         A facility or unit which produces goods or services. In most
                       instances, the unit is a physically separate facility at a single location.

Government Contract:   Any agreement or modification thereof between any contracting
                       agency and any person for the furnishing of supplies or services, or
                       for the use of real of personal property, including lease agreements.
                       The term “government contract” does not include (a) agreements in
                       which the parties stand in the relationship of employer and employee
                       and (b) Federally assisted contraction contracts.

Supply and Service:    Chapter 60 of the Equal Employment Opportunity regulations, states,
                       for the furnishing of supplies or services or for the use of real or
                       personal property, including lease arrangements. The term
                       “services”, as used in this section includes, but is not limited to the
                       following services: Utility, construction, transportation, research,
                       insurance and fund depository.

                                           13
Acronyms:


CFR         Code of Federal Regulations
CRIS        Compliance Review Information System
DOL         Department of Labor
EEO         Equal Employment Opportunity
EEDS        Equal Employment Data System
EEO-1       Equal Employment Opportunity, Employer Information Report
FPDC        Federal Procurement Data Center
FPDS        Federal Procurement Data System
GSA         General Services Administration
JRC         Joint Reporting Committee
OFCCP       Office of Federal Contract Compliance Programs
OIG         Office of Inspector General




                           14
